<html>
<title> - THE QUADRENNIAL HOMELAND SECURITY REVIEW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                THE QUADRENNIAL HOMELAND SECURITY REVIEW 

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________

                           Serial No. 110-133

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

46-859 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman

Peter A. DeFazio, Oregon             Mike Rogers, Alabama
Yvette D. Clarke, New York           Michael T. McCaul, Texas
Ed Perlmutter, Colorado              Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                     Tamla T. Scott, Staff Director

                         Daniel Wilkins, Clerk

                    Michael Russell, Senior Counsel

                                  (II)















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     3

                               Witnesses

Mr. Alan D. Cohn, Deputy Assistant Secretary for Policy, Office 
  of Strategic Plans, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Ms. Christine E. Wormuth, Senior Fellow, International Security 
  Program, Center for Strategic and International Studies:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                Appendix

Questions From Honorable Bennie G. Thompson......................    27


                THE QUADRENNIAL HOMELAND SECURITY REVIEW

                              ----------                              


                        Wednesday, July 30, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [Chairman of the subcommittee] presiding.
    Present: Representatives Carney, Pascrell, and Rogers.
    Mr. Carney. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
the Quadrennial Homeland Security Review.
    Before we get started, I really have to commend the 
Department staff for getting us Deputy Assistant Secretary 
Cohn's testimony in such a timely fashion. We truly do 
appreciate that.
    I lost track of how many times DHS testimony has arrived 
late, but hopefully, this is the new trend, and it will 
continue for years and years and generations to come.
    We are here today to examine efforts at the Department of 
Homeland Security to complete a Quadrennial Homeland Security 
Review, or QHSR, by December 2009. People up here on the Hill 
and downtown in the think tanks have been discussing the need 
for a QHSR since shortly after the genesis of the Department. 
The idea is modeled on the Quadrennial Defense Review conducted 
across the river by our friends in that squat five-sided 
building over at the Pentagon. The Department of Defense, like 
DHS, is a sprawling department made up of countless smaller 
components that, in an ideal world, would collaborate to 
accomplish a set of common missions. But due to the dynamic 
nature of the world, DOD decided that it would self-evaluate 
every 4 years to determine if it was headed in the right 
direction and, if not, what course corrections were required.
    I had the opportunity last week to sit down with Deputy 
Assistant Secretary Cohn, the DHS official tasked with the QHSR 
project. We had a very frank conversation, and after he left, I 
felt very comfortable and confident that he is more than 
capable of not only completing the QHSR but probably exceeding 
expectations, which frankly are high.
    I understand Mr. Cohn also had a meeting with the committee 
staff who were left with a similar impression, so 
congratulations.
    I guess that if I am worried about anything, it is that we 
are about 16 or 17 months from the due date for this fairly 
comprehensive evaluation and that the time span is not only 
going to be punctuated by administration transition but also by 
the ongoing deadlock of the sort of normal appropriations 
process.
    One of the constant themes that I think the subcommittee 
has mentioned in just about all of our hearings is the lack of 
common culture at DHS. While DOD has its desperate components, 
the organization within it is devoted to the QDR. It is 
massive, and it starts working on the next report as soon as it 
releases the latest one.
    DHS isn't quite there yet in the QHSR, and we really can't 
expect it to be. But this first effort is really an opportunity 
to align the member agencies and the personnel with a set core 
of missions and expectations and not to mention working with 
HHS and DOD and other Cabinet-level agencies that DHS will have 
to collaborate with on pieces of the QHSR.
    The subcommittee is all too familiar with the lack of 
common culture DHS. We have heard the stories that if DHS was a 
corporation, it would have taken 7 years from the time of the 
merger of the 22 agencies until there was a DHS culture. We 
have also heard that this process is actually going to take 
longer at the Department.
    The good news is that, even before the QHSR was mandated by 
law, DHS was requesting funding to complete the QHSR, which I 
see as a willingness to reflect on accomplishments, missions 
and, hopefully, shortcomings. The shortcomings are obviously 
the areas where we will hopefully see the greatest improvement.
    We know the things at headquarters will be in tumult come 
November, December and, frankly, January and a few months 
beyond I imagine. But I think we are all cautiously optimistic 
that the QHSR will carry on without much interruption through 
the transition.
    That said, Ms. Wormuth raises some interesting questions in 
her testimony as to whether all of the transitional activities 
in collaborative agencies like HHS and DOD and others will 
hinder the QHSR process. I am sure the subcommittee will be 
interested in learning more for both witnesses regarding the 
potential for unintentional static in trying to complete this 
report.
    From my considerations with Deputy Assistant Secretary 
Cohn, it sounds like he would like to have much empirical data 
in place prior to the transition. That would ensure that when 
the new administration arrives, the bulk of the remaining QHSR 
work will be in analyzing the data and extrapolating from it 
the common goals and missions of the Department; areas for 
improvement; and areas where DHS agencies, personnel, and 
assets are working as envisioned.
    No matter which candidate wins in November, I am sure we 
will see differing views on the subject of Homeland Security 
than those of the current administration. It is important that 
the new administration has an opportunity to play an active 
role in crafting the QHSR rather than just being left something 
totally crafted by the current administration.
    While we are talking about the end of the year, I would be 
remiss if I didn't mention the issue of appropriations for the 
QHSR. Some funds were used in fiscal year 2008 with the idea 
being that dedicated appropriations would be allocated for 
fiscal year 2009 and fiscal year 2010 to ensure adequate 
resources and staff to complete the review.
    There is a good chance the Government will be operating on 
a continuing resolution for some of fiscal year 2009 and based 
upon fiscal year 2008 funding. We need to ensure that funds are 
reprogrammed at DHS for the QHSR to be completed and delivered 
on time. I am sure this is only the beginning of our oversight 
of the QHSR process.
    Mr. Cohn, I am sure your staff and mine will work closely 
together.
    I look forward to our witnesses' testimony and to your 
participation in the entire process.
    I now recognize the Ranking Member for his opening 
statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to thank the witnesses for being with us today and 
to welcome Mr. Cohn to his first congressional hearing and Ms. 
Wormuth back.
    I think you were here with us last month, so it is good to 
have you back.
    Today's hearing will focus on the Department of Homeland 
Security's preparations for its first Quadrennial Homeland 
Security Review or QHSR. The QHSR will be a significant new 
tool in the Department's strategy for ensuring our Nation's 
security. As a Member of the House Armed Services Committee, I 
have seen how crucial a similar review process is for the 
Department of Defense to outline its missions and priorities.
    In the context of Homeland Security, this strategic review 
should allow the Department to develop its long-term strategic 
decision-making and highlight its mission and Homeland Security 
priorities.
    I have also seen on the Armed Services Committee the 
importance of an annual authorization bill. At a minimum, an 
authorization bill helps ensure that the Defense Department 
receives the proper guidance and priority it needs from the 
House and Senate Armed Services Committees. Therefore, as we 
review this effort, we should also consider what steps Congress 
can take to help the folks at DHS fulfill their mission.
    First, we need to pass an annual DHS authorization bill 
before Congress acts on the Homeland Security appropriations 
bill. However, this does not appear possible at this point, so 
we should at least move the annual appropriations bill. If an 
appropriations bill is not passed, the folks at the Department 
may not have the resources they need for the review process.
    Second, the Congress needs to enact the remaining 9/11 
Commission recommendations and consolidate jurisdiction at DHS. 
Doing so will help ensure officials no longer have to report to 
86 committees and subcommittees.
    When our witness Ms. Wormuth was last before the committee, 
she highlighted the need for Congress to consolidate its 
oversight of DHS, and I couldn't agree more strongly.
    Congress must take action to fix this problem so the 
Department can fulfill its critical security missions, 
including the implementation of QHSR.
    I look forward to hearing from our witness, and I yield 
back the balance of my time, Mr. Chairman.
    Mr. Carney. Thank you.
    Since there are no other Members to be reminded that their 
testimony can be submitted for the record, I don't need to say 
that.
    I welcome our panel of witnesses.
    Our first witness is Mr. Alan Cohn, Deputy Assistant 
Secretary for Policy of the Department of Homeland Security.
    Our second is Christine Wormuth, senior fellow in the 
International Security Program at the Center for Strategic and 
International Studies.
    I welcome you both. Without objection, the witnesses' full 
statements will be inserted into the record.
    I now ask each to summarize his or her statement for 5 
minutes beginning with Mr. Cohn.

   STATEMENT OF ALAN D. COHN, DEPUTY ASSISTANT SECRETARY FOR 
   POLICY, OFFICE OF STRATEGIC PLANS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Cohn. Thank you very much Chairman Carney, Ranking 
Member Rogers, and other distinguished Members of the 
committee.
    Thank you for inviting me here this afternoon to provide an 
update on the Department's efforts to conduct the first 
Quadrennial Homeland Security Review.
    As you mentioned, my name is Alan Cohn. Since January 2008, 
I have been Deputy Assistant Secretary for Policy at the 
Department of Homeland Security, responsible for the 
Department's Strategic Planning Office. In that position, I am 
responsible for directing the Department's strategic planning 
activities, including the Quadrennial Homeland Security Review, 
the completion of the Department's Second Strategic Plan, 
development of a new strategic requirements planning process 
and other related activities. I am a career official and a 
member of the Senior Executive Service.
    As the head of the Strategic Planning Office, I serve as 
the director of the Quadrennial Homeland Security Review. I 
have designated a QHSR chief of staff from within my office and 
maintain a core team of analysts within the Office of Strategic 
Plans, supplemented by resources from across the Office of 
Policy and elsewhere in the Department.
    The Department is taking an iterative and collaborative 
approach to the QHSR. We are building on previous and ongoing 
work by intradepartmental and interagency partners, as well as 
acknowledged experts in Homeland Security and related fields, 
including my co-panelist, Christine Wormuth, who authored an 
important recent report for the Center for Strategic and 
International Studies on managing catastrophe.
    The QHSR team is also looking to capitalize on best 
practices and lessons learned from relevant previous reviews. 
DHS is addressing seven legislative priorities for the QHSR in 
four main study areas. The first two studies look at Homeland 
Security across the Federal interagency and our State, local, 
private sector, nongovernmental, and other partners. The last 
two studies look at the Department of Homeland Security itself.
    The first study is a strategic assessment, taking stock of 
what we have been able to accomplish in 7 years since September 
11, 2001, and 5 years since the creation of DHS.
    The second study area was a look at our national readiness, 
leveraging work being conducted in this area already by the 
Federal Emergency Management Agency, the Department's Office of 
Infrastructure Protection, the Department of Defense, and other 
entities.
    The third study area is a review of the Department's 
internal Planning, Programming, Budgeting and Execution system, 
and the Department's efforts to strengthen and improve its 
overall business processes.
    The fourth study area is a review of DHS's major programs 
and activities.
    The Department is making good progress in implementing the 
steps laid out in the QHSR Resource Report, which is available 
on our Web site. From now until the Presidential transition, 
the QHSR team's priority is to lay a strong analytic baseline 
in each of the four study areas and construct the framework for 
further review once a new administration comes in.
    Once the new administration has come in, we anticipate a 
second round of analysis that will focus more closely on the 
new administration's areas of priority.
    The Department is committed to producing an internally 
analyzed and researched document to the maximum extent 
possible. For that reason, the Department has made limited use 
of contractor support for the QHSR. However, outside 
assistance, including the support of contractors and federally 
funded research and development centers, with a wealth of 
Homeland Security knowledge and experience is essential to 
accomplish the QHSR goal of an unbiased and objective review of 
the entire Homeland Security landscape. Nevertheless, please be 
assured that Government staff from the DHS Office of Policy, 
from throughout the Department, and from our interagency and 
intergovernmental partners will extensively review all analysis 
and will make any ultimate recommendations to senior 
leadership.
    In sum, preparing the first Quadrennial Homeland Security 
Review is a tremendous opportunity and a tremendous challenge. 
It is a unique opportunity to step back from the Department's 
essential work of the past 5 years and our Nation's work over 
the past 7 years, and look in a more long-term manner at the 
threats and challenges that we face.
    The Department of Homeland Security is committed to 
producing a QHSR that will point the way to a more secure 
Nation. We will require the support of many others, including 
our partners in Congress, to succeed.
    Thank you for your attention, and I look forward to 
addressing any questions that you may have.
    [The statement of Mr. Cohn follows:]
                   Prepared Statement of Alan D. Cohn
                             July 30, 2008
    Chairman Carney, Ranking Member Rogers, and distinguished Members 
of the committee, I am pleased to appear before you today to discuss 
how the Department of Homeland Security (DHS) is conducting the 
Quadrennial Homeland Security Review (QHSR).
                                 scope
    Section 2401 of the Implementing Recommendations of the 9/11 
Commission Act of 2007, Pub. L. 110-53, directed the Secretary of 
Homeland Security (the secretary) to ``conduct a review of the homeland 
security of the Nation.'' The secretary is required to deliver a report 
on this review to the Congress by the close of calendar year 2009, and 
every 4 years thereafter. During this review process, the secretary 
will comprehensively examine the homeland security enterprise; make 
recommendations regarding the Nation's long-term homeland security 
strategy and national priorities; and provide recommendations to 
address the challenges facing key programs, assets, capabilities, 
budget, policies, and authorities of DHS. The quadrennial review 
efforts will help support departmental continuity through the upcoming 
change of administration by informing the transition teams and the 
incoming administration on longer-term challenges facing the 
Department; the Department's long-term resource planning; strategic 
decision-making challenges; and other issues critical to improving the 
Nation's homeland security posture.
                                approach
    The Department is taking an iterative and collaborative approach to 
the QHSR that builds on previous work by intra-Departmental and 
interagency partners, as well as acknowledged experts in homeland 
security and related fields. The QHSR assessment is divided into four 
major areas of study, focusing on key areas for review as described in 
the implementing legislation. The four major study areas are: (1) A 
strategic assessment of homeland security missions, functions, and 
objectives; (2) an assessment of the homeland security readiness 
posture; (3) a review of DHS organizational alignment and Planning, 
Programming, Budgeting and Execution (PPBE) mechanisms; and (4) an 
exploration of current DHS program issues and challenges.
    The Department has cast a wide and inclusive net to collect the 
thoughts and writings of many in the homeland security community and 
related fields who have dedicated themselves to considering the core 
issues of the QHSR. For the strategic assessment, the Department is 
examining long-term planning documents developed by the Intelligence 
Community, and will utilize the DHS Office of Intelligence and 
Analysis' forthcoming Homeland Security Threat Assessment in assessing 
long-term trends. The Department is reviewing national efforts to 
develop and implement the National Strategy for Homeland Security, the 
National Preparedness Guidelines, the National Response Framework, the 
National Incident Management System, the Integrated Planning System and 
the National Homeland Security Plan. The Department is also reviewing 
academic and policy working papers, such as the Center for Strategic 
and International Studies' Beyond Goldwater-Nichols IV Report, Managing 
the Next Catastrophe: Ready (or Not)?, the Center for American 
Progress's report Safe at Home, and the expansive work associated with 
the Center for the Study of the Presidency's Project on National 
Security Reform.
    With respect to the readiness assessment, the Department will be 
reviewing current assessments, such as the Federal Preparedness Report, 
the State Preparedness Reports, the National Critical Infrastructure 
and Key Resources Report, as well as the Department of Defense's 
Capabilities-Based Assessment for Homeland Defense and Civil Support, 
Quadrennial Roles and Missions Review, and similar studies. In a 
parallel and supporting effort, the Department has begun conducting 
facilitated intra-Department QHSR working group sessions to solicit and 
capture the concerns and recommendations of the DHS components, and is 
examining both new and existing interagency policy groups to serve as 
forums for discussion of quadrennial review topics. The Department is 
also investigating the use of new technologies to reach the wide number 
of non-DHS homeland security stakeholders, including State and local 
governments, private sector and non-governmental organizations, 
academic and research institutions, and others.
    For our review of DHS organizational alignment and Planning, 
Programming, Budgeting and Execution (PPBE) mechanisms, the Department 
will capitalize on efforts by the DHS Management Directorate and Office 
of Policy to design and implement an integrated business process to 
link strategic goals, objectives, and requirements to investment 
planning and budgeting. The Department will also look to ongoing 
efforts to develop a Risk Assessment Process for Informed Decision-
making (RAPID) to inform the strategic prioritization of homeland 
security investment, as well as other efforts by the Department's 
Office of Risk Management and Analysis. The exploration of current DHS 
program issues and challenges will build off of documents and analysis 
currently being developed for the Department's transition efforts, as 
well as analysis done this year as part of the Management Directorate's 
revitalized program review and investment review processes.
                                progress
    The Department is making good progress in implementing the steps 
laid out in the QHSR Resource Report. The Department has established an 
intra-Departmental QHSR working group consisting of approximately 30 to 
40 staff representing all major offices and operational components 
within DHS to discuss quadrennial review-related topics. In an effort 
to focus effort and limit disruption to the components, this group 
meets for periodic, facilitated seminars that allow for cross-component 
discussion of existing studies and newly generated thought papers. In 
addition to this QHSR-specific group, the Department will also use 
existing cross-Departmental councils and bodies to discuss specific 
aspects of the quadrennial review, such as the development of an 
Integrated Risk Management Framework for DHS and the strengthening of 
the Department's PPBE structure.
    The Department understands the importance of involving interagency 
partners in the QHSR process, as the review is meant to examine the 
entire breadth of the homeland security enterprise. The Department is 
working through existing Federal policy coordinating committees in 
developing interagency documents that will form part of the quadrennial 
review process, and will continue to look to those bodies, or similar 
bodies, as the quadrennial review progresses. These strategy and policy 
bodies include the Department of Defense, the Department of State, the 
Department of Health and Human Services, the Department of Justice, the 
Department of the Treasury, the Department of Transportation, the 
intelligence community, and others. The Department will also look to 
these bodies to ensure consistency and harmonization among the various 
defense, homeland security, intelligence, and related reviews currently 
being conducted.
    The Department is also in the process of developing a working group 
to provide advice on the quadrennial review under the auspices of the 
Homeland Security Advisory Council. This carefully selected group will 
consist of individuals from industry, academia, think tanks, and other 
advisory groups. The demographics of the committee will provide a wide 
range of viewpoints, affiliations, and backgrounds to ensure as much 
diversity as possible on how the homeland security mission should be 
defined and executed. In order to reach a broader community of homeland 
security stakeholders, the Department is examining technologies such as 
the Homeland Security Information Network, the Lessons Learned 
Information System, and wiki-based discussion forums as potential 
vehicles for broader discussion of QHSR-related topics.
    For its core team, the Department has designated the Office of 
Strategic Plans, within the DHS Office of Policy, as the administrating 
office of the QHSR. As Deputy Assistant Secretary for Policy (Strategic 
Plans) and head of the Office of Strategic Plans, I serve as the 
Director of the QHSR. I have designated a QHSR Chief of Staff and 
maintain a core team of analysts and advisors within the Office of 
Strategic Plans for the QHSR, which will be supplemented by additional 
staff from the DHS Management Directorate's Office of Program Analysis 
and Evaluation. In addition, the QHSR is leveraging subject-matter 
expertise within the rest of the DHS Office of Policy to develop issue 
papers on a myriad of topics pertinent to the QHSR. These pre-
decisional working papers will focus on a variety of homeland security-
related topics. These papers, and others solicited from the homeland 
security community, will be used as a basis for discussion and further 
QHSR work. By using focused, short-term efforts, we are maximizing our 
internal analytical capability for the QHSR without severely impacting 
the ongoing day-to-day work of DHS components and headquarters staff, 
as well as our interagency and intergovernmental partners.
    The Department has made limited use of contractor support on the 
QHSR. The bulk of policy analysis for the QHSR will be conducted by 
Government staff in the DHS Office of Policy, throughout the 
Department, and from our interagency and intergovernmental partners. 
However, we use external experts to provide outside perspectives, avoid 
tunnel vision, and encourage a broader range of options. The Department 
also uses contract support to conduct analysis on discrete subjects 
within the larger scope of inquiry. The contract support used to date 
has been focused on specialized tasks that provide a catalog of 
existing strategies, policies and directives that govern the homeland 
security community, and a breakdown of homeland security missions and 
functions. These preliminary working papers will form the basis for 
larger discussions and analysis by Government staff and external 
partners, and ultimately will be used by Government staff to conduct 
more in-depth analysis and develop recommendations for senior 
leadership.
                               resources
    The Department has requested $1.65 million to support the QHSR in 
fiscal year 2009. The Office of Policy requested $1.5 million and the 
remaining $0.150 million was requested by the Office of the Chief 
Financial Officer for one full-time equivalent (FTE).
    As discussed above, the Department is committed to producing an 
internally analyzed and researched document to the maximum extent 
possible. However, outside assistance, including the support of 
contractors and federally funded research and development centers that 
have a wealth of homeland security knowledge and experience, is 
essential to accomplish the QHSR goal of an unbiased and objective 
review of the entire homeland security landscape. We ask that the 
committee support our efforts and our fiscal year 2009 funding request, 
and not constrain those resources in a manner that would prevent us 
from utilizing contractors and federally funded research and 
development centers to assist in conducting baseline analysis as part 
of the larger review effort.
                               conclusion
    Preparing the first Quadrennial Homeland Security Review is a 
tremendous opportunity and a tremendous challenge. It is a unique 
opportunity to step back from the Department's essential work of the 
past 5 years, and our Nation's work over the past 7 years that has been 
aimed at closing security gaps and addressing immediate challenges, and 
look in a more long-term manner at the threats and challenges that we 
face. The Department of Homeland Security is committed to producing a 
QHSR that will point the way toward a more secure Nation. To that end, 
we will require the support of many others, including Congress, to 
succeed.
    Thank you for your kind attention. I am happy to answer any 
questions you may have.

    Mr. Carney. Thank you, Mr. Cohn.
    Ms. Wormuth for 5 minutes, please.

STATEMENT OF CHRISTINE E. WORMUTH, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Wormuth. Chairman Carney, Ranking Member Rogers, thank 
you for having me back. It is a privilege as always to be here.
    I would like to focus on a couple of things in my statement 
today: First, the role of the QHSR; second, some of the 
challenges that it is facing in my view; and then to reflect a 
little bit on some lessons learned from DOD's QDR process that 
I think may be relevant for DHS.
    The QHSR has I think the potential to be a very important 
first step in the strategic planning process for DHS has it 
looks to the next 4 years. If it is done well the QHSR can set 
the agenda and define priorities through 2012. It is an 
opportunity to, sort of, get beyond the year to 18-month issues 
and chart the course for what the next administration wants to 
do during its tenure.
    It offers the opportunity to look not just at 
organizational issues, as was done during the Second Stage 
Review, but also to look the an issues of strategy, policy, 
program and budget.
    While it is a tremendous opportunity, I think the QHSR also 
poses obviously some significant challenges for DHS. Among 
these challenges are the scope of the review, the resources 
that are dedicated to it, and its timing.
    Determining the scope of the review is a major challenge, 
first of all. I think, as Alan has outlined, what Congress has 
required for the review and certainly what the current 
secretary and the next secretary will want for the review is a 
very, very broad and deep agenda, particularly for a review to 
be completed in a single year.
    Particularly looking at DOD's experience with QDRs, in my 
view, setting a tight scope for any kind of major review of 
this kind is one of the biggest determinants of whether a 
review succeeds or fails. Size matters, and in this case, I 
would argue bigger is not necessarily better.
    Given the scope and complexity of QHSR, not to mention that 
this is the first review that DHS will be undertaking of this 
kind, it is difficult, in my view as an outsider, not to be 
concerned about the resources that the Department has dedicated 
so far.
    First of all, I want to say, as someone who has had the 
privilege of working with Alan for some time now, there is no 
one better in my view at DHS to lead this effort. I think we 
should all take a lot of comfort in that. He is a terrific 
individual and is going to do a great job.
    That said, $1.65 million and a full time team of 6 people 
in my view is not going to be enough to get this job done. Just 
looking at the QDR experience as a point of comparison, DOD 
already has multiple offices throughout the Department with 
several people who are working full-time on preparing for their 
2010 review. Looking at the last QDR, in 2006, the Office of 
Policy in the Office of the secretary of Defense alone, just 
one office, had a bigger budget than DHS has currently set 
aside for it as an entire department.
    A major strategic review is going to be time-consuming, and 
it is intellectually and bureaucratically demanding, and it is 
just hard for me to see how DHS going to get this done the way 
it needs to be done with that level of effort.
    I think the timing is another big challenge. As you have 
said, Mr. Chairman, the Department has got to get this report 
to you all by the end of next year. That means, in practice, 
that most of the review, some of the review is going to be 
conducted during a time when you don't have a lot of political 
appointees in place. If the past is precedent, a lot of 
political appointees aren't going to be confirmed until late 
spring, maybe summer, of 2009.
    Although DHS is doing a lot to ensure a smooth transition, 
there is no getting around the fact that you are going to have 
a lot of empty offices. When the people do come in, they are 
going to have a major learning curve and less than a year to 
get the job done. That is also looking at the fact that, in 
addition to the fact that there are not going to be a lot of 
people in place, the White House is going to be writing the 
National Security Strategy. I think it remains to be seen 
whether the White House will write one comprehensive strategy 
that includes Homeland Security issues or whether they do two 
separate ones, but either way, it is something DHS has got to 
consider. DOD will be conducting its QDR, which will be on a 
monumental scale, and somehow DHS is going to have to keep up 
with that and try to coordinate those efforts. So that is I 
think a lot to undertake.
    In turning to some lessons I think from the QDR process 
that may be relevant, there are four that I wanted to 
highlight: First, DHS's senior leadership has to really take 
ownership of this review. Looking at the DOD experience, if you 
don't have the secretary or the deputy secretary fully engaged 
in the review, it tends to devolve into a budget drill and a 
lot of arguing over rice bowls. So I certainly hope the new 
secretary comes in and makes his or her priorities very clear 
and gives some very good strategic guidance to the process.
    Second, I think limiting the scope, as I have alluded to, 
of the review will be critical. It can't be an A-to-Z review of 
everything. You have to pick some critical priorities and 
maintain a laser-like focus on those priorities.
    Third, the bureaucracy shouldn't over-prepare and try to 
present the incoming team with a lot of pre-cooked solutions, 
because they are going to reject those.
    Fourth, I think DHS has got to really reach out to all of 
its stakeholders, including you all in Congress, early in the 
process to make sure that everyone is engaged. DHS has more 
stakeholders than any department in the Federal Government. 
This is an area where you are going to have to balance bringing 
in a lot of people with also structuring your review so that it 
doesn't become totally out of hand and devolve into death by 
meeting.
    So there are a lot of challenges, but I think it is a 
tremendous opportunity, and I hope it is given every 
opportunity to succeed.
    Thank you very much for having me here and I look forward 
to your questions.
    [The statement of Ms. Wormuth follows:]
               Prepared Statement of Christine E. Wormuth
                             July 30, 2008
    Chairman Carney, Ranking Member Rogers, and Members of the 
subcommittee, thank you for inviting me to testify on the status of the 
Department of Homeland Security's Quadrennial Homeland Security Review. 
It is a subject of critical importance and I am honored to have the 
opportunity to share my views with you.
    I would like to focus in my remarks on the role of the QHSR, the 
challenges the review seems to be facing initially, and lessons learned 
from the Defense Department's Quadrennial Defense Review that may be 
relevant to DHS as it conducts its first review of this kind.
                          the role of the qhsr
    The Quadrennial Homeland Security Review has the potential to be a 
very important first step in DHS's strategic planning process as it 
looks to the future. Done well, the QHSR will set the agenda and define 
priorities for DHS though 2012. It is an opportunity to look beyond the 
near-term, 12- to 18-month issues and chart a course for what the next 
administration wants to achieve in the area of homeland security over 
the next 4 years. The QHSR report will likely include an in-depth 
discussion of the Nation's homeland security strategy and articulate 
the new administration's strategic priorities and their programmatic 
implications. The report should describe how DHS will work with its 
Federal partners, as well as its many other stakeholders, to coordinate 
activities and programs to greatest effect.
    DHS has not undertaken a strategic level review since 2005 when 
Secretary Chertoff conducted the Second Stage Review shortly after 
being named secretary. Moreover, the Second Stage Review was primarily 
an organizational review while the QHSR offers the opportunity to look 
not only at organizational issues, but also issues of strategy, policy, 
process, program and budget. Given the inherently interagency, inter-
Government and multidisciplinary nature of homeland security, it is 
critical that in conducting its quadrennial review, DHS reaches out to 
a wide array of stakeholders in a way that is unprecedented for a 
Federal agency. Equally important for DHS will be ensuring that its 
review process is consistent with the themes and priorities that will 
be articulated in the new administration's national security strategy, 
whether that is articulated in a single, consolidated document or two 
separate documents, a national security strategy and a national 
homeland security strategy.
                       challenges facing the qhsr
    DHS faces considerable challenges as it undertakes its first 
quadrennial review. Among these challenges are the timing of the 
review, its scope, resources for the review, and the need to coordinate 
with a wide array of stakeholders.
    By law, DHS must submit a final report on the QHSR to Congress by 
December 31, 2009. In practice, this means that much of the review will 
be conducted while there are still very few political appointees in 
place in DHS to run the process. If past is precedent, many political 
appointees will not be confirmed until the late spring and summer of 
2009. Although DHS is working hard to enable a smooth transition to the 
new administration, there is no getting around the fact that there will 
be few appointees in place for the first several months of the QHSR, 
they will have a steep learning curve, and it will be difficult to 
conduct a truly strategic review with a relatively small number of 
senior leaders facing a compressed review timeline and a requirement to 
include in the review an unprecedented number of internal and external 
stakeholders.
    In a similar vein, at the same time DHS is conducting its review, 
the administration as a whole is likely to be developing its national 
security strategy. In an ideal world, the White House would develop and 
promulgate a National Security Strategy (NSS) first, and then cabinet 
agencies would begin their quadrennial reviews, guided squarely by the 
strategic direction provided in the NSS. Given the timelines mandated 
by law for the QHSR however, DHS cannot afford to delay the review 
until completion of the NSS. DHS must begin its review as soon as the 
new leadership of DHS is in place and simply place a premium on 
coordinating its efforts with the White House as thinking on the 
broader strategy develops and is refined.
    Just as the White House will be developing the NSS in parallel to 
the QHSR, the Department of Defense also will be conducting its 
Quadrennial Defense Review, which is likely to have implications for 
DHS and other Federal agencies, at the same time. Conducting the QHSR 
while also staying abreast of developments in the QDR process will be 
an additional challenge for DHS.
    The scope of the QHSR presents additional challenges. Congress has 
required that the review result in a report that describes the national 
strategy for homeland security, outlines and prioritizes critical 
homeland security mission areas, describes the capabilities, 
infrastructure, preparedness levels and budget necessary to 
successfully execute the national homeland security strategy, assesses 
the organizational adequacy of DHS to its mission, and reviews the 
ability of DHS to translate homeland security requirements into its 
budget and acquisition strategy. This is a very broad agenda for a 
review that is to be completed in 1 year, particularly given that for 
the first 6 months of the review DHS is likely to have a very small 
leadership cadre. As I will discuss in more detail in the next part of 
my testimony, determining an appropriate scope for the quadrennial 
review is one of the most important determinants of whether the review 
will succeed or fail. Size matters, and in this case, bigger is not 
always better.
    Given the timing of the QDR as well as its scope, in order for the 
review to conclude successfully at the end of 2009, work on the review 
has to begin today--and it has. That said, there is an inherent tension 
in beginning a review under the current leadership that will conclude 
under the new administration. No matter what party wins the 
Presidential election, the incoming team will want to take a fresh look 
at DHS and is likely to be somewhat skeptical of work done in advance 
for the QHSR. DHS can make the most of the work it does on the QHSR in 
the remaining months by focusing its preparatory analysis on framing 
and describing key issues and options without trying to guide the new 
team toward predetermined outcomes.
    Given the timing, scope and complexity of the QHSR--not to mention 
that this will be the first QHSR conducted by DHS--it is difficult not 
to be concerned as an outside observer by the scant resources 
apparently devoted to the task so far. In its March report to Congress 
this year, DHS reported that it is requesting $1.65 million and 2 new 
positions for the QHSR process. The core QHSR work team will be 
comprised of 6 personnel. There will be additional QHSR work teams, 
although their numbers and size were not clear from the report. The 
QHSR and the QDR are different processes, and the DoD QDR process is by 
no means perfect and should not be mindlessly replicated. At the same 
time, as someone who participated directly in the 1997 DoD QDR process 
and who observed subsequent QDR processes closely, it is very hard to 
see how this level of funding and staff resources can be adequate to 
the demands of a major strategic review process. The Office of the 
Secretary of Defense already has multiple offices with dozens of 
personnel working on preparing for the upcoming QDR. The budget for the 
OSD Policy office alone during the 2006 QDR was more than the current 
DHS QHSR budget. A major strategic review is time-consuming, 
intellectually and bureaucratically demanding. To complete a task of 
this magnitude successfully with 6 people and less than $2 million 
would be a truly heroic achievement.
    Finally, to be successful, the QHSR will need to involve not just 
members of the Federal interagency, but also stakeholders in State and 
local governments as well as tribal organizations, the private sector 
and the non-governmental sector. This will require an unprecedented 
level of outreach and will add a significant layer of complexity to the 
QHSR process. Structuring a major review to be sufficiently 
comprehensive and inclusive to achieve much-needed ``buy-in'' while 
avoiding the pitfalls of ``death by meeting'' and lowest common 
denominator solutions is very difficult. Particularly once the new 
leadership team is in place at DHS, the Department will need to look 
carefully at how it structures the review process to involve the full 
range of its internal and external stakeholders without losing the 
strategic focus on the review. DHS will also need to think carefully 
about how it can remain abreast of developments in DoD's QDR process 
when it does not have the personnel resources to participate in all 
aspects of what is likely to be another wide-ranging QDR process.
                    qdr lessons learned for the qhsr
    Although there are significant differences between DoD's 
Quadrennial Defense Review and DHS's Quadrennial Homeland Security 
Review, DoD's experience with several such reviews do offer certain 
lessons learned that may be useful to consider as the DHS process gets 
underway.
    First, DHS's senior leadership must lead and be engaged in the QHSR 
process. Without leadership by the secretary of Homeland Security or 
the deputy secretary, the QHSR is likely to lack focus, be captured by 
DHS components and devolve into nothing more than a budget drill. This 
would be a serious lost opportunity. In light of the compressed time 
frame for the review and in order to ensure the review has a tight 
focus and is strategy-driven, the new secretary would be wise to set 
his or her QHSR priorities as early as possible and develop the new 
homeland security strategy by early summer 2009 at the latest.
    Second, limiting the scope of the QHSR will be critical. The QHSR 
cannot be an A-to-Z examination of every single issue facing the 
Department of Homeland Security, much less every homeland security 
challenge facing the Federal Government. A QHSR that tries to solve 
every pressing problem is likely to provide very few answers at the end 
of the day. The next secretary should pick a handful of critical issues 
around which to organize the QHSR, ensure the review retains its focus 
on those issues throughout the process, and resist the temptation to 
turn the QHSR into a super program review.
    Third, the DHS bureaucracy should not over-prepare for the 2009 
QHSR. The new secretary and his or her team will have their own views 
and priorities, and are likely to view what has come before with 
skepticism. Career civil servants in DHS should focus on identifying 
and framing key problems and challenges that may be considered in the 
review without offering point solutions. The new secretary is likely to 
place a small team of senior appointees and key front office staff in 
charge of the review, but it would also be wise for the new secretary 
to supplement this leadership team with a handful of senior career 
staff to provide continuity and institutional knowledge through the 
transition period.
    Fourth, DHS should engage its myriad stakeholders--including 
Congress--early in the process. Given the role the rest of the Federal 
interagency plays in homeland security, and the role Congress plays in 
shaping the DHS budget and overseeing its activities, DHS would be wise 
to reach out to these stakeholders early in the QHSR process, and in a 
meaningful way. In addition to the Federal Government and Congress, DHS 
also has external stakeholders at the State and local government level 
as well as in the private and non-governmental sectors. DoD has not 
always engaged successfully with outside stakeholders, often waiting 
until very late in its reviews to bring those outside DoD into the 
process. DHS would be well-served to learn from the DoD experience and 
involve key stakeholders early, both to build support for its key 
priorities and to facilitate the QHSR implementation process when the 
review is complete.
                          concluding thoughts
    DHS faces significant challenges in conducting its first 
quadrennial homeland security review. The timing of the review is less 
than ideal, resources being dedicated so far to the review are scarce, 
the breadth of issues that could be considered as part of the review 
are daunting, and the range of stakeholders with equities in the review 
process is unprecedented. In the near term DHS should focus on framing 
key issues that may be taken up as part of the QHSR process, and 
avoiding trying to pre-cook results of the QHSR. After the election, 
the new administration will need to move quickly to identify key 
priorities and strategic themes, put a leadership team in charge of the 
QHSR process and reach out early to the full range of stakeholders. 
Despite the challenges, the QHSR is an important strategic planning 
opportunity and should be given every opportunity to succeed. Thank you 
very much for inviting me to testify today, and I look forward to 
answering your questions.

    Mr. Carney. Thank you, Ms. Wormuth, for your comments, 
and--well, not proceed with questions.
    You may have questions submitted in writing from other 
Members who aren't here, but I will recognize myself for 5 
minutes to begin with.
    Mr. Cohn, and this is probably the most anticipated 
question of course that you are going to get, and it is about 
the allocation of the resources. From your perspective, what 
are the resources allocated toward the project?
    Mr. Cohn. Let me talk about what we have allocated to the 
process right now and what we anticipate. What we anticipate 
devoting to the process as we go forward.
    In our Office of Strategic Plans, we have a dedicated 
Quadrennial Homeland Security Review chief of staff and a core 
team of analysts who are focused on the first two reviews. We 
have two analysts from our staff and additional resources from 
our federally funded Resource and Development Center.
    We, in addition, have several members of our staff, 
additional members of our staff, who are dedicated to working 
on projects that serve fundamental purposes for the Quadrennial 
Review. So, for example, in addition to the staff that is 
dedicated to the QHSR and the Strategic Assessment and 
Readiness sections we have our Strategic Requirements Planning 
Team, which as they stood up their pilot this summer, has 
turned to working on the Department's Integrated Business 
Process for the efforts to strengthen and enhance that process, 
working with our partners across all the management directorate 
and within the policy directorate. That is an additional four 
full-time employees plus contract and detailed other support.
    In addition, we are making use of over a dozen analysts 
from our Office of Policy Development to begin preparing 
analytical baseline papers for the Quadrennial Review, in 
addition to the regular duties as assigned.
    Mr. Carney. In addition to--so you are taking them away 
from their assigned duties to do this as well?
    Mr. Cohn. As much as it is that the work of the Office of 
Policy, as we are nearing the end of the administration, as new 
policy initiatives from the Department are slowing down and we 
are turning our attention more to preparing for a transition 
and finishing up existing policy projects, we are beginning to 
use a portion of the time of the policy analysts from the 
Office of Policy to supplement the work of the analysts in the 
Office of Strategic Plans.
    We have also begun establishing working groups, not only 
within the Department of Homeland Security but with our 
interagency partners, to begin discussions on issues associated 
with each of the four studies. So we are beginning to leverage 
the expertise of dozens of individuals from across the 
Department and interagency on specific issues. Again, none of 
them are full-time resources for the Department. But each of 
them contributes expertise, each of them contributes a 
viewpoint that is important to the process.
    I would note and highlight on something that Ms. Wormuth 
pointed out, our philosophy for the review, as we are aware of 
the way the QDR is conducted, we are of the nature of the 
issues we are looking at, that wanted to fashion the review, 
that it was built on a small core team of analysts supported by 
outside individuals to repair the baseline analysis that would 
then be put before working groups, subject matter experts and 
other individuals, not removed from their job and isolated from 
the front lines but brought in to review issues, to look long 
term at different issues, to be able to put work in front of 
them and be able to react to that. In that way, we hope to 
overcome some of the shortcomings of enormous committees, of 
removing vast numbers of people from the Department, or the 
death by meeting that Ms. Wormuth raised.
    Mr. Carney. Well, if you don't have a lot of people, you 
are not going to be able to have a lot of meetings, so I 
suppose that is one good thing. Death by PowerPoint, by the 
way, has also been outlawed by the Geneva Convention, I 
understand.
    So do you think these resources are going to be adequate to 
complete the review?
    Mr. Cohn. As Representative Rogers noted, we are concerned 
about the possibility of going on to a continuing resolution 
and not having the funding that we have requested for fiscal 
year 2009 available to us, especially when the new 
administration comes in.
    Mr. Carney. Well, what do you do in that case?
    Mr. Cohn. In that case, we will continue to do exactly what 
we have been doing, is to basically leverage all assets that we 
can find to make available for the QHSR, analytic resources 
from across the Department, not only the Office of Policy but 
other offices as well; analytic resources from our interagency 
partners, and they have been indicated a great willingness to 
come in and help us. We are examining the uses of technology; 
working with others, like our university Centers of Excellence 
to reach additional individuals and sources of analysis; using 
leveraging off of current studies; and flexing to look at all 
available resources that we can. We will continue to do that if 
we have to go on to a continuing resolution.
    Mr. Carney. Okay. Thank you.
    We have been called to votes, as you can hear. We have only 
about 10 minutes left.
    Mr. Rogers will proceed for 5 minutes, and then we will 
break and return for another round of questions.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    You have gone into the area I was most concerned about, and 
that is this appropriations process. Before I go there, though, 
what about the authorization process? Is the fact that we are 
not giving you an annual authorization bill, is that going to 
in any way inhibit your ability or detract from your ability to 
get this done in a timely manner?
    Mr. Cohn. Well, as you know, our secretary has said on 
numerous occasions that a strong Committee on Homeland Security 
and consolidated oversight over the Department are essential. 
We strongly support that, and we think that that type of an 
arrangement will greatly assist the Department in completing 
its responsibilities.
    I know that, Representative Rogers, you participated in a 
discussion earlier today with our deputy secretary on this 
topic. So you know the Department's views that we very much 
support a strong committee on Homeland Security and 
consolidated oversight over the Department.
    Mr. Rogers. What about this appropriations issue? You 
talked about this concern about a CR. You heard Ms. Wormuth 
talk about how she felt like, given the staffing, that it was 
pretty unrealistic to meet that next December goal when you 
throw in there the change and transition or the change in 
political appointees, and the fact is I think this very may 
well be open until summertime. Is this December deadline 
realistic, given that dynamic?
    Mr. Cohn. Sir, I think that we are comfortable with the 
December deadline. Even more than that, we recognize that it is 
important for us to conduct and complete this review.
    As Ms. Wormuth accurately pointed out, at the outset of the 
new administration, there is going to be the development of a 
new National Security Strategy, decisions about whether 
National Homeland Security strategy should be released as 
separate, or part of that strategy, complimentary or 
subordinate to that strategy. We feel that it is important for 
the Department to complete this analysis and put forward its 
thoughts on Homeland Security, on the strategic assessment of 
where Homeland Security fits in the overall posture of national 
security and where, from a strategic vision, we believe that we 
should go, not only as a Department but as a Homeland Security 
enterprise with our Federal partners and our nongovernmental 
partners, our State and local partners and others. So we feel 
that the December--not only is the deadline reasonable, but we 
think it is important for the Department to aim to complete its 
review by that point.
    Mr. Rogers. I think, I know you are, like me, you are an 
attorney. It was smart for you to use that ``aim'' for that 
target, because I think that Ms. Wormuth's testimony was dead 
on the money. I think it is going to be hard, if not 
impossible, unless you do what she talked about and keep the 
scope very narrow. I think that if you really make--which is 
not I think the overriding purpose of a Quadrennial Review. I 
think you want to have a broad scope if at all possible.
    Let's go to Ms. Wormuth. You talked about the new secretary 
taking ownership when you went through your four points. Could 
you elaborate more on how you would like to see the next 
secretary show a real commitment to this process?
    Ms. Wormuth. Yes, I would be happy to, and I think what I 
am talking about here is the secretary or the deputy needs to 
be not just perceived as but also actually leading the effort 
in terms of first articulating, what are the strategic 
priorities for the Department as it looks to the next 4 years 
of the next administration? Then the secretary I think or the 
deputy has to be a continuing presence at the decision meetings 
that will presumably take place throughout the process of the 
review to make sure that, A, decisions are made; but that, B, 
they are consistent with and relate to the priorities that the 
secretary sets out.
    So it is really a question, I think, of the secretary or 
his representative has to be there to convey that these issues 
are important. I take this review seriously. I have given you 
my strategic guidance, and I expect the review to be conducted 
in accordance with those priorities. Because in the absence of 
that, if the secretary is perceived as having delegated the 
review, it becomes much easier, I think, for the components of 
an agency, particularly one like DHS where you have so many 
components and they still haven't gelled into a fully coherent 
organization, to spend the time in the review, again, arguing 
over parochial issues and who is up and who is down and who is 
getting more of the budget share.
    Mr. Rogers. My time is about up. We will get you on the 
next round.
    Mr. Carney. Since we have to vote, we will stand in recess 
subject to the recall of the Chair.
    [Recess.]
    Mr. Carney. The committee will come to order.
    I don't think we are going to be interrupted between now 
and the time we adjourn, but who knows?
    Okay, Ms. Wormuth I want to talk about the QDR for a 
second. One of the criticisms of the QDR is that it has not 
necessarily had a consistently great impact on actual policy 
development at DOD. Do you see a problem with that for DHS, a 
potential similar kind of problem for DHS, especially given 
this the first time? What can we anticipate?
    Ms. Wormuth. I think that is a great point. We actually, at 
CSI, have been talking with some colleagues from DOD about that 
very challenge of how do you ensure that a review of this kind 
is truly strategy-driven as opposed to just being kind of a 
super program review. I think there is no easy solution to 
that. It is never easy to be able to do that. I think some QDRs 
have been more successful than others. But I would argue there 
are perhaps two primary mechanisms that you can try and use to 
help maintain that focus. It is certainly something for DHS to 
consider.
    First, as I said, I think secretarial leadership is key and 
if you have a secretary or a deputy who makes clear what the 
strategic priorities are and then drives those through the 
entire process and just relentlessly comes back to, okay, how 
does this set of subjects that we are talking about in this 
discussion meeting 4 months into the review how does this 
relate to what we have articulated as our strategy? How is this 
going to advance our strategic objectives?
    Second tool you can try to use is something like a terms of 
reference. In the last QDR, the DOD developed sort of a guiding 
document that elaborated a little bit on the strategic 
priorities and what the review is going to be about and 
promulgated that throughout the Department to try and help 
guide people's efforts and keep the analysis from getting kind 
of out-of-control. I think that is a tool that DHS can 
certainly think about using.
    Mr. Carney. In order to make this whole exercise real and 
substantial, do you think benchmarks ought to be set or 
established?
    Ms. Wormuth. Benchmarks in what sense?
    Mr. Carney. In the sense of what the goals of the DHS are, 
and benchmarks in the sense of you have to define these things 
by the end of the process.
    Ms. Wormuth. Well, I think certainly you want to try, in 
the process of articulating the strategy, and again, it is not 
clear to me whether the White House might try and develop a 
single national security strategy that would include a 
description of the homeland security strategy or whether they 
would delegate that to DHS. I think it depends a little bit how 
you proceed. But to the extent that the Department of Homeland 
Security says here is what our strategy is, and here is what 
our goals are as a Department, I do think you want to tie the 
review to those goals and say okay, if one of our major 
objectives as a Department is to secure the Nation's borders, 
here is how these particular sets of issues we are going to 
look at in the review relate to that.
    Something else I think the Department might consider which 
is a little bit related to benchmarks is recognizing that the 
review can't look at everything A-to-Z and do a good job in the 
time frame particularly during a transition. Something it might 
do is say, okay, maybe we be we are going to focus on these top 
5 to 7 issues and really focus and do a good job laying 
analytically how this is going to work.
    But we recognize there are 15 other important issues and 
perhaps as part of the report to Congress, the Department might 
articulate here is a road map for how we are going to tackle 
intellectually and analytically these other remaining problems. 
We are going to do it in the next 2 years and here is sort of 
the process as a Department that we are going to use to try and 
attack those issues. I think that is perhaps a way also to try 
and ensure that important issues get the kind of consideration 
they deserve.
    Mr. Carney. I think you have to be somewhat retrospective 
where you have come since inception of the DHS but that has got 
to point you to where you are going to go. Now, how many QDRs 
have we had since 1997, 3 years, something like that? What can 
we learn from those processes to apply to this for the Homeland 
Security Department?
    Ms. Wormuth. Well, I think in my view, and I would argue 
that actually, DOD only started calling them QDRs in 1997 but 
they had the bottom-up review and the base force so they have 
been doing 4-year reviews for a while. But Alan and I were 
talking during the break, in many ways you do want to keep the 
group, the core group, thinking these issues through for the 
secretary relatively small, at least in the beginning, 
particularly when you are looking at things like developing 
strategy and developing--if DHS pursues a terms of reference, 
that group should be relatively small, so that you don't wind 
up with kind of a lowest-common-denominator watered-down 
agenda. That is one lesson. I think DOD, certainly in the 1997 
QDR which I was a part of at a very low level, we had 52 
working groups and very rapidly the process became very 
diluted.
    So maintaining a strategic focus on a core set of issues, 
working those issues initially with a relatively small group, I 
think something DOD has not done well to date is reaching out 
to its stakeholders which includes Congress, our allies, other 
departments, you know DOD tends to wait to talk to the 
interagency until very late in the process. As a result you 
don't, DOD has had trouble sometimes I think getting a lot of 
buy-in. It hasn't always been able to coordinate its efforts 
very well. DHS I think can't afford to make that same mistake. 
So I think one lesson is definitely engage in a meaningful way, 
not sort of showing you a dog-and-pony show PowerPoint 
briefing, but engage stakeholders in a meaningful way.
    Again another lesson it sounds as if DHS is walking down 
this path is not to over-prepare and not to try and pre-script 
what the issue set is, much less what the answers are, because 
invariably the new team, no matter what party they come from, 
is going to want to think these issues through on their own and 
I think if the bureaucracy spends a lot of time developing all 
sorts detailed models and whatnot, that is very likely to be 
just swept away when the new team comes in.
    Mr. Carney. Thank you. Mr. Rogers.
    Mr. Rogers. I recognize that Mr. Cohn can't come in here 
and say he is not going to meet the December deadline. But you 
were pretty candid and said it is going to be difficult unless 
he narrows the scope. Let's talk about the scope because you 
just now made reference to it in the QDR, about remaining 
focused on a narrow set of areas. Talk about what is realistic 
in your view for this homeland review, as far as the scope and 
what is not.
    Ms. Wormuth. Well, I think one, to some extent in my view 
the deadline is what the deadline is. DHS is going to deliver a 
report to Congress at the end of December, 2009. The question 
is what is the quality of that report going to be and how much 
impact it is going to have? I would argue to some extent that--
and I would hope that DHS would work with Congress on this--but 
you are more likely to have a meaningful review that generates 
thoughtful analysis and helps chart a smart course for the 
future if you pick a reasonably small set of issues to focus 
on.
    Frankly, DOD faces a lot of the same challenges. The 
legislation requirements for the QDR are also very, very broad. 
DOD faces the same challenges in terms of timing, that DHS is 
facing. The one difference is it has tons of resources to throw 
at the problem. But I personally am becoming more and more a 
fan of the idea of saying look, we can't give you the answers 
to all of the pressing problems facing DHS in 1 year, 
especially when the first 6 months is going to be consumed with 
transition activities. So we are going to pick what we think 
are the most important issues that we need to tackle right out 
of the gate to set the course for the next 4 years. We 
recognize there are other important issues.
    Here is what we think they are. Here is how we are going to 
try and tackle them in a structured methodical way over the 
next couple of years so you can be assured that we are not 
going to forget those issues and that we are going to give them 
the consideration.
    So I am almost of the view of you don't try and answer the 
mail all in 1 piece by December 31, but that you demonstrate in 
a real way that there is a process for trying to tackle all of 
the issues down the road.
    Mr. Rogers. I made reference in my opening statement, and 
Mr. Cohn talked about it a little bit, as you know, I am very 
concerned about this lack of consolidation and its effect on 
the ability of the Department to know which direction Congress 
is expecting it to go and what its goals and priorities should 
be, and having these multiple standing committees tugging at it 
may dilute its concept of what its mission is.
    Talk a little bit about that because you just now talked 
about it needing to focus in on its priorities and know how it 
needs to get from where it is to where it wants to be. How is 
this lack of unified oversight hindering that, or is it?
    Ms. Wormuth. I would argue that certainly you would have a 
much better opportunity, you would have a much better chance of 
developing a coherent homeland security policy and execution 
strategy if you had a much more consolidated congressional 
oversight process. Let's face it. The endeavor----
    Mr. Rogers. And an authorization bill annually.
    Ms. Wormuth. Exactly. The sort of endeavor of homeland 
security is a very, very complex one by its very nature, even 
if you had frankly a consolidated oversight capability here in 
Congress. So there is no question in my mind that it would be 
easier to make sure that all of the pieces are knit together in 
a thoughtful way and that Congress is in agreement with the 
Department about what its priorities are and about where it 
wants to go in the review. I think that we would have a better 
QHSR if we had a consolidated structure. I think we would have 
a better homeland security enterprise if we had a conformed 
Congressional oversight structure.
    Unfortunately, I am not particularly sanguine that we are 
going to get that any time soon, and certainly not in the time 
frame under which the QHSR is being conducted. So I think if I 
were in Alan's position or the secretary's position, you really 
have no other choice other than to again try and reach out 
early with the core members in Congress to try and engage them 
in a meaningful way and head off as much as possible 
disagreements about what the priorities should be.
    It is not an ideal way to go about the process, but I think 
given the realities, that is basically the option you have 
available.
    Mr. Rogers. Mr. Cohn, do you have any thoughts on that?
    Mr. Cohn. Again, as we said, the secretary, as you know, 
deputy secretary, favor strong Congressional--strong committee 
and homeland security consolidated Congressional oversight. I 
think that----
    Mr. Rogers. Is the lack of consolidation going to hinder 
your ability to get the focus that we were talking about a few 
minutes ago, as far as analyzing the mission and the priorities 
and how we are going to get there? Is the lack of that coherent 
unified oversight going to hinder that, in your view?
    Mr. Cohn. The distribution of oversight across multiple 
committees within Congress obviously places the Department 
under a burden of responding to a number of different 
discretions and a number of different priorities. Any effort to 
consolidate that is welcomed and supported by the secretary and 
the deputy secretary.
    But I am confident that we will conduct the review and we 
will make a meaningful review regardless of the environment.
    Mr. Rogers. Thank you.
    Mr. Carney. Chairman recognizes the gentleman from New 
Jersey, Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Cohn, it seems 
universally that people think you are trying to do the job. 
That is pretty rare for your Department. I want to congratulate 
you. I say that with no facetious intent because you have a 
tough job. At this point in time, in the history of mankind, 
have you come to any findings that are alarming to you?
    Mr. Cohn. I assume you are relating solely to the homeland 
security enterprise. We are really in the base, in an early 
stage of the review. We are setting the analytical baselines 
for the review at this point. We are cognizant of the variety 
of criticism that the Department has faced. We are cognizant of 
all of the efforts, external to the Department, to help us in 
our mission. I think that that is one of the benefits of a 
Quadrennial Review.
    We have been working this Department very hard for 5 years, 
all of us, as a Nation, since September 11, to figure out what 
we do to better secure our homeland. The Quadrennial Review 
gives us the opportunity to step back from all of this activity 
and look to, and take a more measured look at, what we have 
done, where we are and where we need to go. But at this point, 
no, we, at this point in the review, we have not drawn 
conclusions as to which direction that we should go or which 
things might need fixing. As Ms. Wormuth told us in her opening 
statement where that is [is/?] really something that we should 
reserve for later in the review process.
    Mr. Pascrell. That is my question because this is, as we 
know, a Quadrennial Review, however the subject matter is one 
that sets off all kinds of alarms. We are talking about the 
safety of our families and our neighborhoods and the country. 
So it would seem to me that when you are doing this kind of 
review which may be finished, hopefully, December 2009 or 
December 2014, just pick a date out of the air, it would seem 
to me that because of the nature of the subject matter that as 
you move along, you would want to bring attention to either the 
committee, or people within the Department of Homeland Security 
in order that we can't wait until this thing is complete.
    What I am very concerned about and I would like your 
response on is we have, you mentioned the word, as Ms. Wormuth 
mentioned the word ``continuity.'' Well, are we going to wait 
about continuity until December 2009 or whenever, when the very 
essence of homeland security essentially is based on 
continuity? I am very concerned about that. We are going to 
wait, we are going to have a year for the new administration to 
be there. Now you are going to come and present these findings, 
and we know how we have tried to keep politics out of this 
thing and I think both sides have. We, Democrats, have no 
monopoly on that. How are you going to do this? Is that a 
legitimate question do you think?
    Mr. Cohn. I think that is a very legitimate question. I 
think the way we have been looking at it is first and foremost 
the Department's priority is ensuring a smooth transition from 
this administration to the next, continuity in the Department, 
a handoff on January 21 or whenever it becomes appropriate----
    Mr. Pascrell. But each agency is supposed to put together 
part of that, you know, handover, let's say, as your review is 
going on. As your review is going on, each agency is going to 
present to the new administration this is where we are, here 
are some options, et cetera, et cetera, et cetera, if they take 
it seriously, that is what they are supposed to be doing.
    Mr. Cohn. This has been the challenge. I serve as the 
senior transition officer for the Office of Policy in addition 
to the director of the QHSR and so we coordinate very closely 
with the transition efforts. We see these things building atop 
one another. First and foremost is the baseline that each 
component in our office, as you mentioned, plus our 
headquarters, is laying for the new administration. These are 
the issues, this is the Department, these are the issues, these 
are the decisions that are facing you coming in in the next 30, 
60, 90 days. That is our departmental transition process. We 
are fully supportive of that. We are participating in that and 
we are making sure that there is synchronization between the 
transition activities and the quadrennial review.
    Mr. Pascrell. Let me ask the Chairman then, excuse me. I 
want you to continue. I apologize for interrupting. I want to 
ask the Chairman: Are we going to be getting these reports 
before the next administration gets it? What is the role of the 
Homeland Security Committee in these agency handovers?
    Mr. Carney. It is my hope that the Oversight Subcommittee 
and the full committee generally does have, at least, insight 
into the progress of the report. I don't necessarily think it 
is quite appropriate that we get completed written chapters of 
the report before it is done, but I do think we need to be 
apprised along the way and I hope, Mr. Cohn, that would be your 
vision as well.
    Mr. Cohn. I would have to defer to the Under Secretary for 
Management Duke and Deputy Secretary Schneider, who are running 
our departmental transition process.
    Mr. Carney. That is a really appropriate answer. Good job.
    Mr. Pascrell. I am really concerned about the transition. I 
don't want to bring alarm to the situation but, this to me is 
very critical because you are not changing administration, you 
are going to be changing the nature of the administration, 
which is possible, and anything is possible in November. We 
need to be prepared. We can't wait until on-the-job training 
takes place. You have career folks. You have political 
appointments. Some political appointments have done better than 
the career folks.
    We have had instances of that right here at committee 
hearings. I don't care which administration appoints them as 
long as they did a good job and are doing their job. That is my 
feeling.
    So I am really concerned about this continuity. In view of 
the lack of communication between certain agencies, the lack of 
communication between homeland security and the House, and 
homeland security and the Senate, there are 14,000 miles apart 
from one another. I am a little concerned about that you might 
say. So that the next, so we have as best a seamless approach 
as we continue past November. That is not going to be easy. 
Your job isn't easy but that job is not easy either. Right? Ms. 
Wormuth what do you think about that? How are we going to avoid 
it?
    Ms. Wormuth. Absolutely, I think there are no easy answers, 
but I think there are a couple of things you can try and do; I 
think one, and again DOD is facing many similar changes as it 
prepares for its next QDR, but on the one hand it would be 
useful and perhaps this is already going on. It is a bit 
delicate, but it would be useful to try and reach out to the 
campaigns and the folks perhaps who are informally advising the 
campaigns to help educate them about what are the big issues, 
what are the pressing things that you are going to face when 
you walk in the door on January 21, or whatever the exact day 
is so that you give them a little bit of a running start. That 
is something you can try and do.
    I would also argue that these Quadrennial Reviews should 
not be the vehicle through which you solve the near-term 
pressing 1-year horizon problems. They should be more forward-
looking. But there are absolutely, as you say, immediate issues 
that have to be dealt with, and I would hope that these 
immediate issues would have sort of a separate more of an 
operational assessment type of track where you have the new 
team come in, they have got a group of people who are focused 
on the Quadrennial Review and those longer-term issues.
    They also have a group of people who are thinking about, 
okay, we have got hurricane season coming up in June, are we 
ready for that? Where are we on immigration reform what is 
going on there, whatever the sort of pressing issues are?
    Mr. Pascrell. In conclusion, I am sorry, Mr. Chairman, if I 
went over the time. In conclusion, let me ask you this 
question: What you are saying, and what Mr. Cohn says, goes 
right to the heart of the issue, but if you are doing this 
review, that is going to conclude, hopefully, within the next 
10 years, 2 years, 1 year, and you come across a specific 
vulnerability that is not being addressed, I hope we are not 
going to wait until the final report that you bring it to--
well, I don't know who you would bring it to, that you would 
bring it to whomever you think or is designated that should get 
it so that we can address that vulnerability or isn't this the 
case?
    Mr. Cohn. No, sir, that is absolutely the case, and in 
fact, that is something that we take very seriously. We will 
not hold immediate-term issues for long-term resolutions. We 
pass those issues to our partners in our operational components 
in our office of operations coordination in our Office of 
Management directorate, if there are management issues, and we 
will work them in concert with them to make sure that we get a 
resolution to them.
    Our intention is to make sure that those issues are 
addressed, even if there needs to be an interim solution while 
we think more long-term about what we want to put into place 
going forward.
    Mr. Pascrell. Thank you.
    Mr. Carney. Thank you, Mr. Pascrell. Mr. Cohn, we have 
heard a couple of times now that Ms. Wormuth thinks that the 
best chance for success for the report is that you limit it in 
scope. Do you agree with that?
    Mr. Cohn. Yes.
    Mr. Carney. What do we limit it to?
    Mr. Cohn. First, we have tried to take the broad language 
of the legislation which empowers the Department to look at a 
wide variety of things and narrow that into four basic study 
areas, that is strategic assessment, that is readiness 
assessment, that is look at the integrated business practices 
and the look at the key programs. Within there, as Ms. Wormuth 
has said, it can't be a soup-to-nuts review. We have got to 
focus on the key issues. To us, that means the strategic 
assessment focuses on strategically what is all the guidance 
that has been put up until now? What do the strategies say, the 
directives? All of the pieces of legislation, the committee 
reports, et cetera, what does all of that say about where we 
need to go as a Department and as an enterprise? What are those 
key issues that need to be resolved?
    One of the things we were discussing at the break was the 
continuing discussions about the role of the Department of 
Homeland Security as opposed to the Department of Defense, how 
we are working ever more closely together every day, but how 
defining issues like homeland security and homeland defense 
need to be clarified on a strategic basis. On the readiness 
assessment, again, we will not do a top-to-bottom readiness 
assessment. FEMA is authorized and appropriated to do that job, 
the Office of Infrastructure Protection, the Department of 
Defense--where we will add value is to say, what can we see by 
aggregating the results of what everyone has looked at?
    What does that tell us in the aggregate? Second, what has 
the experience of going through that, each of these entities, 
told us about what we need in order to gain better detail and 
gain better fidelity?
    One of the issues that Ms. Wormuth and I have talked a lot 
about is, how do we define requirements in this area, in this 
distributed system where we have an enormous number of 
stakeholders and we have to collaboratively determine what that 
is?
    So to focus in on key issues like that, the third study 
with the integrated business process, that is the backbone upon 
which the Department will hang. So understanding how are we 
going to improve that process, all the things that we have done 
up until now and how that needs to be strengthened. So to go 
through each of those four areas and identify the key issues 
within them that need to be studied, need to be presented to 
the new administration as challenges and then understand the 
strategic direction that the administration wants to go in on 
these challenges, and then make recommendations for resolution.
    Mr. Carney. You are satisfied that all of the components 
within DHS will be able to meet those four challenges in each 
of their components in a timely way, given the sort of the 
history of coordination and organization issues?
    Mr. Cohn. That is one of the reasons why we have not 
adopted an approach of a cast of thousands of detailees from 
all of our components. We have chosen instead to focus on the 
analytical resources that have been concentrated in offices 
like the Office of Policy, which was set up for this purpose, 
to look at these issues, to develop out the analysis and 
develop out the options and then bring in our partners from our 
components, from the other Federal departments and agencies, 
from our other stakeholders to focus down on the issues as 
presented, to talk against a piece of analysis, rather than to 
try to sweep up every issue or every concern that might exist 
at every level of the Department.
    Mr. Carney. Okay, now the Department has about 208,000 
employees, if I am correct. How many employees are dedicated to 
the process?
    Mr. Cohn. I am reading off a card, just so that I am sure 
that I----
    Mr. Carney. That is fine. Fine, we do it all the time.
    Mr. Cohn. Within the Office of Strategic Plans, we have a 
QHSR chief of staff, two analysts and an analyst vacancy. We 
had a vacancy come open for a reason. We are posting that 
vacancy. We also have a detailee from the Coast Guard who 
submitted his resignation papers. He will be leaving us in the 
fall and we will be looking to fill that position. Our 
intention is to bring that group up to a total of six. We are 
filling that with we have brought on board a policy honors 
fellow, we have brought in a forward analyst from our 
federally-funded research and development center, and we are 
looking at, we are talking with the Coast Guard as to whether 
we can gap-fill that vacancy before the next assignment season.
    In addition, as we have talked about our strategic 
requirements planning team, the team that is standing up and 
piloting our strategic requirements process, that process has 
been working well. We are completing those pilots now. We have 
turned the attention of that team, which is four full-time 
employees plus a Coast Guard detailee and two contractors to 
work on this question of study 3, which is really an essential 
piece for the Department. What is the Department's integrated 
business process? How will we integrate strategic planning and 
requirements planning? The planning programming budget and 
execution system, our investment in acquisition system and our 
enterprise architect together into a single solid integrated 
business process. So we have dedicated those folks' time to 
that activity.
    In addition--those are the full-time folks who are 
dedicated to this effort. In addition, we have the part-time 
emphasis of a number of folks from across the Office of Policy.
    Mr. Carney. So right now it is three.
    Mr. Cohn. Right now it is three who are dedicated to the 
Quadrennial Homeland Security security team.
    Mr. Carney. Thank you. Mr. Rogers? Mr. Pascrell, any 
further questions?
    Okay. Do you see this process as a unifying process for the 
DHS?
    Mr. Cohn. I very much hope so. As we had the chance to 
discuss, the question of an integrated DHS culture is something 
that we aspire to, but we have already seen the development of 
a real shared sense of mission within the Department and each 
of these activities, jointly assessing strategically where we 
are going and what our mission is, looking at how far along we 
have come, how do we strengthen our business processes 
together, and really how do we work more closely together on 
joint programs and programs of joint interest, I think each of 
these activities will have the effect of bringing us more 
closely together as a Department. That is certainly the 
intention. I do believe that it will have that effect.
    Mr. Carney. This is for both of you and this will be the 
last question. What role do you see the subcommittee playing in 
this process?
    Mr. Cohn. As I mentioned in my opening statement, you know, 
our partners in Congress are an important part of this process. 
That is not just a statement that we put in the statement. Your 
committee, and Congress as a whole, have spoken to the 
Department in numerous ways over numerous times and we are 
fully considering all of the ways that you have spoken to the 
Department about the expectations that you have. We have come 
up to visit with your staff several times to talk about the 
progress of the Review and we intend to continue doing that, 
and so as to ensure that this committee understands what we are 
doing, knows what we are doing, is up to speed on our progress, 
on our status, knows whether we are hitting our milestones and 
understands again this question that has come up a couple of 
times today, whether that December, 2009 date is the date that 
we need to shoot for and also why, why it is so important that 
we do, that the Department does speak by that date as we mature 
and we mature into this role, this leadership role, in the 
homeland security enterprise and a different kind of leadership 
role than other departments perhaps, not where we are supposed 
to do this job ourselves, but where we are supposed to lead 
from the front with our interagency partners, with our State 
and local partners and with our nongovernmental partners and 
others. I see an open dialog and I see a regular updating of 
progress to this committee so that you can have comfort and you 
understand where we are going with this review.
    Ms. Wormuth. For me, I think that your subcommittee could 
very usefully play two major roles, and one is to serve as an 
advocate frankly, for the Department, an advocate up here in 
Congress for the Department as it conducts the Review, to be 
the subcommittee that reminds all of the other 85 subcommittees 
why this review is important, why you all need to try and speak 
with one voice as much as possible and interacting with the 
Department and why it is important that the Department get 
resources to conduct their review.
    I think that is very much needed for the Department. I 
think to the extent that you all can be an advocate you can 
help improve the likelihood that the Department will produce a 
quality review at the end of the day. I think the second role 
your subcommittee can play as the Subcommittee for Management, 
Investigations, and Oversight is to act as an integrator, 
again, here on the Hill, to try and bring together what are the 
different priorities from a Congressional perspective that 
Congress would like to see focused on as part of the review and 
to again try and help focus those Congressional voices in a way 
that it can be, you know, meaningful input to the Department as 
opposed to trying to sort of respond to, you know, the Tower of 
Babel chorus of 86 different voices.
    Mr. Carney. The Tower of Babel is easier to understand 
actually.
    I want to thank you both for your insight and your candor. 
Mr. Cohn, Godspeed, my friend. Good luck with this. You have a 
lot to do.
    I remind you that you may have some questions in writing. 
Please return those expeditiously. I appreciate the testimony 
getting in early this time. It was great. Hearing no further 
business before the subcommittee, we stand adjourned.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

Questions From Chairman Christopher P. Carney of Pennsylvania for Alan 
  D. Cohn, Deputy Assistant Secretary for Policy, Office of Strategic 
                 Plans, Department of Homeland Security
    Question 1. Since its establishment in 2003, the Department of 
Homeland Security has experienced some difficulty with organization and 
coordination.
    How can we be assured that the key stakeholders will participate in 
appropriate ways?
    Is it possible that the QHSR could be a unifying exercise for the 
Department?
    Answer. DHS aspires to have an integrated culture and a shared 
sense of mission throughout headquarters and the component offices. 
Many of the necessary activities of the QHSR, including jointly 
assessing our strategy and mission; examining the progress of the 
Department; developing ways to strengthen our business processes; and 
working more closely together on joint programs will have the effect of 
fostering departmental cohesion. That is the intent of the review and 
DHS believes that the QHSR effort will have that effect.
    More specifically, DHS has created an intra-departmental working 
group, representing all Department components and offices, to advise 
the QHSR team on component-specific issues and interests. DHS is also 
in the process of standing up a sub-committee of the Homeland Security 
Advisory Committee (HSAC) to advise DHS on the QHSR process. We are 
also working with our interagency and intergovernmental partners, 
academia, think tanks and other subject matter experts to ensure that 
the review incorporates a wide spectrum of viewpoints. We are also 
examining uses of existing technology such as the Lessons Learned 
Information System, Homeland Security Information Network, and wiki-
based discussion forums as potential vehicles for reaching a wide base 
of stakeholders and facilitating a broader discussion of QHSR-related 
topics.
    Question 2. Many of the critical infrastructure systems that are 
potential terrorist targets are owned and operated by private 
companies. Obvious examples are transportation facilities, 
telecommunications systems, the electric grid, and chemical plants.
    How should the Department deal with national security concerns 
about privately held infrastructure?
    Answer. The Homeland Security Presidential Directive 7 (HSPD-7) and 
the National Infrastructure Protection Plan (NIPP) were promulgated to 
address the national security concerns regarding protection of critical 
infrastructure and key resources (CIKR). The Federal Government has 
long recognized that it cannot protect the Nation's CIKR alone, and, 
because the majority of CIKR is owned or operated by the private 
sector, a partnership that fully engages these partners is required.
    To address this need, the NIPP outlines a Sector Partnership 
framework between Government and the private sector that involves them 
in joint planning, program identification, and program implementation 
on the entire range of activities, from deterrence, prevention, and 
risk mitigation to response and recovery to ensure protection and 
resiliency of the infrastructures and other key resources of the 
economy. This Sector Partnership has been in full operation for more 
than 2 years and continues to mature and improve. Each of the 17 
original sectors developed and, in 2007, promulgated Sector Specific 
Plans that outline goals, objectives, and implementing actions for the 
specific sector. A newly designated 18th sector, Critical 
Manufacturing, will soon follow suit with its own SSP.
    A major contribution to this partnership by the Federal Government 
is supporting each Sector to develop a tailored CIKR Sector Information 
Sharing Environment within which each Sector can coordinate and 
communicate among its members, with government at all levels, and with 
other sectors upon which they depend. The Federal Government has an 
inherent role and capability to identify and develop threat and risk 
analysis products for each sector and across sectors. The Department of 
Homeland Security (DHS) Homeland Infrastructure Threat and Risk 
Analysis Center (HITRAC), a joint program office between the DHS Office 
of Infrastructure Protection (IP) and the DHS Office of Intelligence 
and Analysis (I&A), develops these products through a fusion of threat, 
vulnerability and consequence information for distribution to both 
public and private sector partners, and often coordinates with these 
partners throughout the development of products. In turn, the CIKR 
sectors depend on these products for planning, setting goals and 
agendas for protection and resiliency programs, and preparing for and 
managing response to terrorist incidents. In addition, the Department's 
Science and Technology Directorate (S&T) sponsors research, 
development, testing, and evaluation of technologies that address 
capability gaps as identified by the Critical Infrastructure Sectors.
    The National CIKR Protection Annual Report establishes a framework 
and provides benchmarks for evaluating existing CIKR priorities and 
protective programs, and their supporting CIKR Partnership and 
Information Sharing Environment. It supports actionable recommendations 
for future risk mitigation activities. The National Annual Report 
highlights the designated areas of increased emphasis and the progress 
made by the Department of Homeland Security, sector-specific agencies, 
the Federal, State, local, tribal and territorial governments, and 
private-sector security partners in protecting the Nation's CIKR, and 
includes the National Profile of Terrorism Risks to CIKR.
    Question 3. Congress has legislated this Quadrennial Homeland 
Security Review. It is our hope that this exercise will help the 
Department focus its policy development efforts.
    How can this subcommittee be helpful to the Department in doing the 
QHSR?
    Answer. We have appreciated previous opportunities to brief 
subcommittee staff on the progress of the QHSR, and we intend to 
continue to do so throughout the process. As discussed during the July 
30, 2008 hearing, it will be most helpful for the subcommittee to 
remain committed to maintaining an open dialog and facilitating regular 
progress updates so that we may keep you apprised of QHSR efforts. 
Additionally, DHS would value the subcommittee serving as an advocate 
and point of coordination within Congress for the QHSR effort, 
coordinating and consolidating input and advice from our numerous House 
oversight committees. Finally, the subcommittee can assist in ensuring 
that DHS is appropriated the full $1.65 million in the President's 
fiscal year 2009 budget request, without limitation on use and in the 
most expeditious way possible, to support development of the best 
possible product.
    Question 4. A recurring question in national security agencies is 
how they can move forward with structured programs, yet maintain the 
flexibility to deal with new challenges, such as the Katrina episode or 
indeed the events of 9/11 themselves. It strikes me that the QHSR 
should really deal with this.
    Do you have any thoughts on how the Department should address this 
issue in the QHSR?
    Answer. The Department has given extensive consideration to the 
inherent challenge of planning and organizing for asymmetric, low 
probability/high consequence events such as Hurricane Katrina and 9/11. 
As described in the National Preparedness Guidelines (2007), a 
principal means of addressing this challenge is through the development 
of capabilities that are useful across a broad range of threats. 
Specifically, capabilities-based preparedness is defined as preparing, 
under uncertainty, to provide capabilities suitable for a wide range of 
challenges while working within an economic framework that necessitates 
prioritization and choice. It is a way to make informed choices about 
how to manage the risk and reduce the impact posed by potential 
threats. It focuses decisionmaking on building and maintaining 
capabilities to prevent and protect against challenges (e.g., 
intelligence analysis, critical infrastructure protection, etc.) and to 
respond and recover when events occur (e.g., on-site incident 
management, medical surge, emergency public information, and economic 
recovery). Capabilities are developed to address a wide range of 
threats and therefore bring an inherent flexibility into an 
organization's readiness posture.
    More fundamentally, the National Strategy for Homeland Security 
(2007) called for the Federal Government to ``establish a more 
deliberate and comprehensive system that will ensure unity of effort 
and help maximize success as we work to prevent and disrupt terrorism, 
protect the American people, critical infrastructure and key resources, 
and respond to and recover from incidents that do occur'', and calls on 
DHS to lead a national effort to create and transform homeland security 
principles, systems, structures, and institutions across four key 
pillars of homeland security. The Strategy also highlights the need for 
risk to inform homeland security decisionmaking. Executing against this 
guidance and building a comprehensive system will enable the Government 
to more efficiently align homeland security policy, strategy, plans, 
and operational activities against new threats and ever-evolving 
priorities.
    The QHSR can reinforce and support these approaches while also 
fostering closer relationships with similar reviews underway in the 
defense and intelligence communities.
   Questions From Chairman Christopher P. Carney of Pennsylvania for 
 Christine E. Wormuth, Senior Fellow, International Security Program, 
              Center for Strategic & International Studies
    Question 1. The Quadrennial Defense Review has been conducted three 
times between 1997 and 2006. But the Department of Homeland Security is 
not the Department of Defense. There are major differences in mission, 
organization, scale, and so on.
    What are these differences?
    What do they tell us about how the QHSR should be conducted in a 
different way?
    Answer. Response was not provided at the time of publication.
    Question 2. The QHSR has been timed to be conducted during the 
initial year of each new Presidential term. The thought was that this 
would help focus homeland security policy development. But the second 
Quadrennial Defense Review was published in 2001, prior to the 9/11 
attacks, and many thought it to be irrelevant.
    How can we be assured that the analytical work and recommendations 
are acted upon even in the event of a homeland security crisis?
    Answer. Response was not provided at the time of publication.
    Question 3. Congress has legislated this Quadrennial Homeland 
Security Review. It is our hope that this exercise will help the 
Department focus its policy development efforts.
    How can this subcommittee be helpful to the Department in doing the 
QHSR?
    Answer. Response was not provided at the time of publication.
    Question 4. A recurring question in national security agencies is 
how they can move forward with structured programs, yet maintain the 
flexibility to deal with new challenges, such as the Katrina episode or 
indeed the events of 9/11 themselves. It strikes me that the QHSR 
should really deal with this.
    Do you have any thoughts on how the Department should address this 
issue in the QHSR?
    Answer. Response was not provided at the time of publication.

                                 <all>

</pre></body></html>
